USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 1 of 14

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-13163
Non-Argument Calendar

D.C. Docket No. 2:19-cr-00024-SCJ-JCF-6

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
versus
MARIA ISABEL GONZALEZ MALDONADO,
a.k.a. Maria Isabel Gonzalez-Maldonado,
Defendant-Appellant.

Appeal from the United States District Court
for the Northern District of Georgia

(May 17, 2021)
Before LAGOA, BRASHER, and ANDERSON, Circuit Judges.
PERCURIAM:

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 2 of 14

Maria Isabel Gonzalez Maldonado appeals her sentence of 97 months'
imprisonment for one count of conspiracy to possess with intent to distribute
methamphetamine and one count of possession with intent to distribute fifty grams
or more of methamphetamine. She raises two arguments on appeal: ( 1) the district
court miscalculated the total quantity of methamphetamine attributed to her in her
role in the conspiracy and (2) the district court should have reduced her base-offense
level as a "minor participant." We disagree on both points and affirm her sentence.
I.

FACTUAL AND PROCEDURAL BACKGROUND

A federal grand jury indicted Maldonado and six co-defendants on twenty
total counts relating to a methamphetamine conspiracy. The indictment charged
Maldonado only in Count One, conspiracy to possess with intent to distribute
methamphetamine in violation of21 U.S.C. §§ 841(a), (b)(l)(C), and 846, and Count
Twelve, possession with intent to distribute at least 50 grams of methamphetamine
in violation of 21 U.S.C. § 84l(a)(l), (b)(l)(B). Maldonado ultimately pled guilty
to both counts and the district court sentenced her to 97 months' imprisonment. The
salient facts are as follows.
Throughout 2018 and 2019, a joint investigation between the Georgia Bureau
of Investigation and the Federal Bureau of Investigation led to agents intercepting
phone calls and text messages between Maldonado and co-defendant Teofilo Carlos
Santana Medrano. In the early months of 2019, Santana visited Maldonado's house
2

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 3 of 14

several times to obtain an unknown amount of methamphetamine to distribute to the
other co-defendants, who, in turn, sold it to their buyers. Because Maldonado
challenges the district court's calculation of the total amount of the unknown and
unseized drugs, we recount the following in detail.
On February 15, 2019, Maldonado messaged Santana: "The man called me.
If I give you one when do you think you'd have the paper?" Santana responded that
he would have it soon, but that he "might be able to get two bucks together by today."
Maldonado replied, saying that she would talk to the man, and later informed
Santana that the deal would happen. She asked Santana if she could give this
unidentified man Santana's phone number so they could arrange a place to meet.
Additional messages later established that Santana had agreed to bring something to
Maldonado.

Agents

believed

that

Maldonado

gave

one

kilogram

of

methamphetamine to Santana, who provided a $2,000 "partial" payment in return.
Two days later, on February 17, 2019, Maldonado asked Santana ifhe wanted
a "half' the next day. Santana replied, telling Maldonado that his friend would get
the "half' on February 20, 2019. Santana requested Maldonado's bank-account
information, and GPS tracking placed Santana at Maldonado's house later that day.
Agents believed that Santana visited Maldonado to obtain 0.5 kilogram or more of
methamphetamine.

3

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 4 of 14

A failed deal for another 0.5 kilogram of methamphetamine happened the next
day, but the two closed a deal for another 1.5 kilograms on February 28, 2019. On
March 1, Santana contacted Maldonado to see when she would "bring the rest," and
agents believed, based on GPS tracking, that Santana went to Maldonado's residence
to obtain the remaining amount of the requested methamphetamine from
Maldonado.

On March 2, 2019, Santana told Maldonado that he would send

someone over to her house with "500" and would bring her "the seven" later that
afternoon. He asked Maldonado to set aside "one and a half," which the agents
believed to be 1.5 kilograms of methamphetamine.
The back and forth came to an end on May 9, 2019, when federal agents
executed a search warrant, arrested Maldonado, and seized numerous cell phones.
Maldonado pied guilty to both counts against her without a plea agreement from the
government. The district court accepted her change of plea.
The presentence investigation report calculated Maldonado's base offense
level at a 34. This level was based on her distribution of "at least 5 kilograms" of
methamphetamine. Prior to sentencing, Maldonado filed a written objection to this
determination, arguing that the evidence was insufficient to determine the quantity
of drugs.
At the sentencing hearing, the government presented the testimony of the lead
FBI special agent who had been surveilling Maldonado since 2018. The agent
4

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 5 of 14

testified that he determined Santana would purchase half or full kilograms of
methamphetamine at a time from Maldonado. Santana, in turn, would charge his
buyers roughly $400 per ounce of methamphetamine.
The agent also provided testimony on his experience with drug dealers' use
of code words to conceal their illegal activities. For instance, he testified that one of
Maldonado's messages on February 15-"The man called me. If I give you one,
when do you think you would have the paper"-indicated that she was brokering a
deal between a third party and Santana for one kilogram of methamphetamine and
asking when Santana would have the money for it. Based on his experience dealing
with this code language, he was able to identify numerous conversations between
Maldonado and Santana regarding the purchase of methamphetamine in the amount
of kilograms, not ounces. He determined that Santana obtained methamphetamine
from Maldonado on several occasions and that she was his primary source of the
drugs.
Based on his experience, and over the course of his investigation, the agent
testified in great detail to eight specific transactions between Maldonado and
Santana.

In addition to the four transactions discussed above-I kilogram on

February 15, 2019; 0.5 kilogram on February 19, 2019; 1.5 kilograms on February
28, 2019; and 1.5 kilograms on March 2, 2019-the agent identified the following
four additional transactions between Maldonado and Santana:
5

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 6 of 14

• 0.5 kilogram on March 5, 2019;
• 1 kilogram on March 13, 2019;
• 2 kilograms on April 9, 2019; and
• 0.5 kilogram on April 17, 2019.
Ultimately, it was the agent's conclusion that Maldonado provided to Santana "at
least" 8.5 kilograms of methamphetamine.
The agent also testified that he conducted a so-called "safety valve" interview
with Maldonado. See 18 U.S.C. § 3553(f). His impression was that she seemed well
versed in the quantities, prices, and techniques involved in distributing
methamphetamine.

During the interview, Maldonado insisted that the largest

amount of methamphetamine she helped distribute was 0.5 kilogram and that she
had been involved in "only" two transactions. The agent, however, testified that he
found this to be untruthful simply based on the number of times Santana visited her
house.
Following the live testimony, Maldonado argued several points. First, she
argued that the government provided insufficient evidence to prove the amount of
drugs attributable to her was as high as in "the amount of kilograms." She insisted
such an estimate was based only on the government's speculation. According to
Maldonado, even if Santana were selling "kilograms" of the drugs-not "ounces"he had multiple sources to obtain the drugs and thus the amount was not all from
6

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 7 of 14

her. In total, she requested the district court calculate the drug quantity between 1.5
and 5 kilograms, not "at least" 5 kilograms. She also asked the court to consider her
a "minor participant" in the drug conspiracy, requesting a two-level reduction under
the Sentencing Guidelines.
The district court rejected both arguments. Specifically, as to the two-level
reduction for being a minor participant, the district court noted on the record that it
was required to assess Maldonado's conduct against five factors, which are
delineated and discussed further below in our analysis. The district court determined
that three factors weighed against Maldonado, one in her favor, and one neither for
nor against her. Accordingly, the district court found that Maldonado did not qualify
for such a reduction.
The district court calculated Maldonado's total offense level at a 31, leaving
the Sentencing Guidelines' range at 108 to 135 months' imprisonment. For a reason
not entirely clear from the record, the district court varied downward one level to 30
and sentenced Maldonado to 97 months' imprisonment, followed by five years'
supervised release for each count. After preserving the relevant issues for appeal by
way of proper objections, Maldonado filed this appeal.
II.

ANALYSIS
Maldonado raises two issues on appeal. First, she argues that the district court

clearly erred in its calculation of the quantity of drugs. Second, she argues that the
7

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 8 of 14

district court clearly erred by denying her request for a two-level minor-role
reduction under the Sentencing Guidelines. We discuss each argument in turn.

A.

The Drug-Quantity Calculation

First, Maldonado argues that the district court clearly erred in determining the
drug quantity that could be attributed to her.

She insists the district court's

calculation of "between 5 and 15 kilograms" is too high. Rather, under her arguedfor calculation, the most that could be attributed to her is between 1.5 and 5
kilograms.
We review a district court's determination of the drug quantity attributable to
the defendant for clear error. United States v. Azmat, 805 F .3d 1018, 1046 (11th Cir.
2015). To find clear error, among other things, we must be left with a "definite and
firm conviction that a mistake has been committed." United States v. Rothenberg,
610 F.3d 621, 624 (11th Cir. 2010) (quoting Rodriguez-Lopez, 363 F.3d 1134, 1137
(11th Cir. 2004)).
The government bears the burden of establishing the quantity of drugs by a
preponderance of the evidence, Azmat, 805 F .3d at 1046, and it is required to put
forward "reliable and specific evidence" when the defendant objects to the proffered
amount, United States v. Almedina, 686 F.3d 1312, 1315 (11th Cir. 2012). When
the exact quantity is unknown because the drugs were not seized by authorities, the
district court must estimate the quantity. See U.S.S.G. § 2D1.1 cmt. n.5; see also
8

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 9 of 14

United States v. Barsoum, 763 F.3d 1321, 1333 (11th Cir. 2014). The court may
rely on evidence demonstrating "the average frequency and amount of a defendant's
drug sales over a given period of time." United States v. Frazier, 89 F.3d 1501, 1506
(11th Cir. 1996).
We find no clear error in the district court's calculation. In fact, there is strong
record evidence that Maldonado was accountable for at least five kilograms of
methamphetamine. We find particularly convincing the extensive testimony of the
special agent. As a foundation, this testimony established a distribution relationship
between Maldonado and Santana. Furthermore, this testimony provided the court
with compelling explanation of code words and price-matching. From there, the
district court was able to establish that Santana purchased half-kilogram or kilogram
quantities from Maldonado on at least eight occasions. A most conservative estimate
from our calculation, Maldonado was responsible for at least 8.5 kilograms of
methamphetamine.
The only colorable point that Maldonado raises is the agent's "admission" that
Santana "had other sources of supply for methamphetamine." Although this may be
true-and perhaps probative of other parties' cases in this larger conspiracy-it does
not sufficiently rebut the actual evidence offered by the agent of the eight
transactions totaling 8.5 kilograms directly from Maldonado.

In other words,

whether Santana possessed, conspired to possess, purchased, or sold additional
9

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 10 of 14

amounts from other dealers is neither relevant to Maldonado's case nor dispositive
as to the quantity of methamphetamine that Maldonado, herself, sold him.
Maldonado's argument on appeal is a valiant assay in trying to cast doubt in
the district court's calculation, but it is an unsuccessful plight.

Much of her

contention-indeed, virtually all of it-is not only speculative, but simply a different
interpretation of the facts. As a matter of law, this cannot establish clear error.
United States v. Izquierdo, 448 F.3d 1269, 1278 (11th Cir. 2006) (rejecting the
notion that clear error can be established by simply noting that "there are two
permissible views of the evidence" (quoting Anderson v. City ofBessemer City, 470
U.S. 564, 574 (1985))).

B.

The Minor-Role Reduction

Next, Maldonado argues that the district court clearly erred in rejecting her
request to be considered a "minor participant" under § 3B 1.2 of the Sentencing
Guidelines. She contends that she was merely "a gatekeeper" for Santana and that
he was her only customer. She argues that she did not participate in the planning or
organizing of the criminal activity and, therefore, the district court's finding that she
"set up" the drug deals was an "overreach."
We review the district court's determination of a defendant's role in the
offense for clear error. United States v. Rodriguez de Varon, 175 F.3d 930, 937
(11th Cir. 1999). The Sentencing Guidelines provide for a two-level reduction if the
10

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 11 of 14

defendant was a "minor participant" in the crime. U.S.S.G. § 3Bl.2(b). "A 'minor
participant' is someone who is 'less culpable than most other participants, but whose
role could not be described as minimal."' United States v. Martin, 803 F .3d 581,
591 (11th Cir. 2015) (quoting U.S.S.G. § 3Bl.2 cmt. n.5). The defendant has the
burden of proving her mitigating role in the offense by a preponderance of the
evidence.

Rodriguez de Varon, 175 F.3d at 939.

And the district court has

"considerable discretion in making this fact-intensive determination." United States
v. Boyd, 291 F.3d 1274, 1277-78 (11th Cir. 2002).

There is a two-pronged inquiry to determine whether a role reduction applies,
considering all probative facts involving the defendant's role and evaluating the
totality of the circumstances. United States v. Man, 891 F.3d 1253, 1274 (11th Cir.
2018). Specifically, the district court is to consider the defendant's role: (1) in the
relevant conduct for which she has been held accountable at sentencing; and (2) as
compared to that of the other participants in her relevant conduct. United States v.
Cruickshank, 837 F.3d 1182, 1192 (11th Cir. 2016). The district court is also to

consider the totality of the circumstances of several factors when determining
whether a defendant qualifies for a role reduction, including:
(i) the degree to which the defendant understood the scope and
structure of the criminal activity;
(ii) the degree to which the defendant participated in planning or
organizing the criminal activity;
11

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 12 of 14

(iii) the degree to which the defendant exercised decision-making
authority or influenced the exercise of decision-making authority;
(iv) the nature and extent of the defendant's participation in the
commission of the criminal activity, including the acts the defendant
performed and the responsibility and discretion the defendant had in
performing those acts;
(v) the degree to which the defendant stood to benefit from the criminal
activity.
U.S.S.G. § 3B.1.2 cmt. n.3(C); see United States v. Presendieu, 880 F.3d 1228,
1249-50 (11th Cir. 2018).
Here, the district court properly and sufficiently considered and applied these
factors. Again, the district court weighed the first, second, and fourth factors against
Maldonado, the third factor in her favor, and did not weigh the fifth factor either for
or against her. We find no error in any of these determinations.
The district court weighed the first factor-the degree to which she
understood the scope and structure of the criminal activity-against Maldonado.
She argues this was error, as she understood the scope and structure of the criminal
activity only to "a limited degree." She again cursorily alleges that she was merely
a "gatekeeper" with only one customer. That is the extent of her argument. We do
not find this persuasive. Among other things, the agent testified that Maldonado was
"well versed" in the lexicon of methamphetamine, including the quantities, prices,
and techniques involved in distributing and selling it. We can hardly say it was clear
error for the district court to conclude that she was more than a "limited" participant.
12

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 13 of 14

The same can be said of the second factor- the degree to which she
participated in planning or organizing the criminal activity. Maldonado admits she
was a "broker," or, in her words, "an intermediary between Santana and the unknown
person above [her]." Yet she contends it was an "overreach" to find that she "set
up" the deals. She insists that she participated in neither the planning nor the
organizing of the deals, claiming that the evidence does not show she ever took it on
herself to broker any deals at her own direction. Again, we disagree. The seized
phone records clearly demonstrate Maldonado planned and organized the
distribution of the methamphetamine to Santana.
Finally, the fourth factor was also properly weighed against Maldonado.
Contrary to her claims, the agent's testimony showed that Maldonado set the time
and location of the deals. We agree with the government: Maldonado was "essential
to the successes of the drug-trafficking scheme."
Weighing three of the five factors against Maldonado, we cannot say the
district court clearly erred in rejecting her request for this reduction. Further, as we
have previously stated, "[w]hen the relevant conduct attributed to a defendant is
identical to [her] actual conduct, [she] cannot prove that [she] is entitled to a minorrole adjustment simply by pointing to some broader scheme for which [she] was not
held accountable." See United States v. Alvarez-Coria, 447 F.3d 1340, 1343 (11th
Cir. 2006). Accordingly, because the relevant conduct for which Maldonado was
13

USCA11 Case: 20-13163

Date Filed: 05/17/2021

Page: 14 of 14

held accountable was identical to her actual conduct, her request for a minor-role
reduction fails.
Turning to the other consideration, when considering Maldonado's role as
compared to her co-defendants' roles, we agree with the government that she has
failed to present evidence that her conduct was less significant than her codefendants. Based on the agent's credible testimony, Maldonado was Santana's
supplier and was much more important to the conspiracy than simply being a
"gatekeeper."
III.

CONCLUSION

Maldonado cannot show clear error in the district court's calculation of the
amount of methamphetamine attributed to her or in the district court's determination
not to apply a two-level role reduction. Accordingly, we affirm her sentence.
AFFIRMED

14

